<html>
<title> - CRIMINAL JUSTICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                            CRIMINAL JUSTICE

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov



                  U.S. GOVERNMENT PRINTING OFFICE
71-190                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6700170827041214130f020b174904080a49">[email&#160;protected]</a>  


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)
                            Criminal Justice

                                Findings

        <bullet> During the Commission's 2011 reporting year, 
        the Chinese government waged a broad-scale crackdown on 
        human rights advocates, lawyers, bloggers, writers, and 
        democracy activists. In early 2011, Chinese public 
        security officials detained more than 200 advocates in 
        a campaign that appeared related to official 
        sensitivity over recent protests in the Middle East and 
        North Africa and to an anonymous online call for so-
        called ``Jasmine'' protests within China.
        <bullet> Harassment and intimidation of human rights 
        advocates and their families by Chinese government 
        officials continued during this reporting year. Public 
        security authorities and unofficial personnel illegally 
        monitored and subjected to periodic illegal home 
        confinement human rights defenders, petitioners, 
        religious adherents, human rights lawyers, and their 
        family members. Such mistreatment and abuse were 
        evident particularly in the leadup to sensitive dates 
        and events, such as the Nobel Peace Prize award 
        ceremony in December 2010 and the ``Jasmine'' protests 
        of early 2011.
        <bullet> Chinese officials continued to use various 
        forms of extralegal detention against Chinese citizens, 
        including human rights advocates, petitioners, and 
        peaceful protesters. Those arbitrarily detained were 
        often held in psychiatric hospitals or extralegal 
        detention facilities and subjected to treatment 
        inconsistent with international standards and 
        protections found in China's Constitution and the PRC 
        Criminal Procedure Law.
        <bullet> Chinese criminal defense lawyers continue to 
        confront obstacles to practicing law without judicial 
        interference or fear of prosecution. In cases that 
        officials deemed ``politically sensitive,'' criminal 
        defense attorneys routinely faced harassment and abuse. 
        Some suspects and defendants in sensitive cases were 
        not able to have counsel of their own choosing and some 
        were compelled to accept government-appointed defense 
        counsel. Abuses of Article 306 of the PRC Criminal Law, 
        which prescribes criminal liability to lawyers who 
        force or induce a witness to change his or her 
        testimony or falsify evidence, continue to hinder 
        effective criminal defense.
        <bullet> In February 2011, the National People's 
        Congress Standing Committee reviewed and passed the 
        eighth amendment to the PRC Criminal Law, which reduced 
        the number of crimes punishable by the death penalty to 
        55 crimes. The reduction signaled the first time the 
        Chinese government has reduced the number of crimes 
        punishable by capital punishment since the PRC Criminal 
        Law was enacted in 1979. International organizations 
        and the state-run media pointed out that courts rarely, 
        if ever, applied the death penalty for the 13 crimes no 
        longer eligible for capital punishment.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Press the Chinese government to release 
        immediately advocates who are in prison or detention 
        and to adhere to fair trial standards and ensure 
        procedural protections for the approximately 40 human 
        rights advocates in cases that have already gone to 
        trial.
        <all> Support the establishment of exchanges between 
        Chinese provincial law enforcement agencies and U.S. 
        state law enforcement agencies to study policing, 
        evidence collection, inmate rights, and other criminal 
        justice reforms currently underway in China.
        <all> Press the Chinese government to adopt the 
        recommendation of the United Nations (UN) Committee 
        against Torture to investigate and disclose the 
        existence of ``black jails'' and other secret detention 
        facilities as a first step toward abolishing such forms 
        of extralegal detention. Ask the Chinese government to 
        extend an invitation to the UN Working Group on 
        Arbitrary Detention to visit China.
        <all> Call on the Chinese government to commit publicly 
        to a specific timetable for its ratification of the 
        International Covenant on Civil and Political Rights, 
        which the Chinese government signed in 1998 but has not 
        yet ratified. Press the Chinese government to implement 
        the principles asserted in its 2009-2010 National Human 
        Rights Action Plan, and request that the Chinese 
        government implement additional plans to advance human 
        rights and the rule of law.
        <all> Urge the Chinese government to amend the PRC 
        Criminal Procedure Law to reflect the enhanced rights 
        and protections for lawyers and detained suspects 
        contained in the 2008 revision of the PRC Lawyers Law. 
        Encourage Chinese officials to commit to a specific 
        timetable for revision and implementation of the 
        revised PRC Criminal Procedure Law.

                              Introduction

    During the Commission's 2011 reporting year, the Chinese 
government's failure to uphold legal protections for criminal 
suspects and defendants, promote transparency of the judicial 
process, and implement legal reforms highlighted ongoing 
problems within the criminal justice system. Chinese public 
security officials continue to contravene international 
standards by detaining, interrogating, and investigating 
criminal suspects without adequate due process protections. 
Closed trial proceedings and unfair trial procedures continue 
to contravene Chinese and international legal protections and 
demonstrate the lack of an independent judiciary.
    During the year, the Chinese government signaled its 
resolve to protect what it deemed to be ``social stability'' 
through targeted crackdowns on rights advocates and continued 
reliance on an array of arbitrary and extrajudicial detention 
measures. In early 2011, Chinese public security officials 
implemented a harsh crackdown on government critics and rights 
advocates, including lawyers, bloggers, writers, and democracy 
activists. In the months that followed, Chinese authorities 
employed a range of illegal and arbitrary detention measures--
including home confinement and enforced disappearances--to 
``maintain stability'' and silence rights advocates. 
International human rights groups have called the 2011 
crackdown one of the most severe in years.

             Abuse of Police Powers: Suppression of Dissent

    During this past year, the Commission observed reports of 
Chinese law enforcement personnel engaged in a range of abuses 
targeting human rights advocates, lawyers, writers, and their 
families.\1\ These abuses included harassment, assault, 
detention, kidnappings, and illegal surveillance.\2\ Reported 
incidents of abuse increased during periods of heightened 
official sensitivity. Beginning in February 2011, public 
security officials and plainclothes security personnel 
detained, harassed, ``disappeared,'' and placed under illegal 
surveillance prominent rights defenders. The campaign appeared 
related to official concern over protests in the Middle East 
and North Africa and to an anonymous online call for so-called 
``Jasmine'' protests within China.\3\ By April 18, the non-
governmental organization Chinese Human Rights Defenders 
reported that public security officials had criminally detained 
39 rights advocates and that more than 20 individuals remained 
``disappeared.'' \4\ For example, Chinese police detained 
Beijing-based lawyer Tang Jitian on February 16 after he 
attended a meeting to discuss the ongoing ``soft detention'' of 
the self-trained legal advocate Chen Guangcheng.\5\ Beijing 
police summoned and detained human rights lawyer and university 
lecturer Teng Biao on February 19 before searching his 
residence and confiscating property, including two computers, 
politically themed books, and documentaries.\6\ In February, 
the Guardian reported that five domestic security protection 
officers allegedly beat human rights lawyer Liu Shihui after he 
attempted to attend a planned protest in Guangzhou city, 
Guangdong province.\7\ The Commission also noted increased 
police abuses against rights defenders and advocates 
surrounding other politically sensitive events, such as the 
Nobel Peace Prize Ceremony in December 2010 and the annual 
meetings of the National People's Congress and Chinese People's 
Political Consultative Conference in March 2011.\8\ Such 
arbitrary restrictions on personal liberty, freedom of 
expression, and freedom of peaceful assembly and association 
contravene the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, as well 
as China's Constitution and domestic laws.\9\

      Pretrial Detention and Prisons: Torture and Abuse in Custody

    Although the Chinese government formally outlawed torture 
in 1996 with amendments to the PRC Criminal Procedure Law and 
the PRC Criminal Law,\10\ torture and abuse by law enforcement 
officers remain widespread. In November 2008, the UN Committee 
against Torture (UNCAT) stated it ``remains deeply concerned 
about the continued allegations . . . of routine and widespread 
use of torture and ill-treatment of suspects in police custody, 
especially to extract confessions or information to be used in 
criminal proceedings.'' \11\ Although China objected to the 
UNCAT report's findings in its November 2009 followup report, 
in October 2010, UNCAT submitted a letter to the Chinese 
government requesting clarification on issues including the 
legal safeguards to prevent torture, the harassment of lawyers 
and rights defenders, and the lack of statistical information 
related to torture.\12\
    During this reporting year, the Commission observed 
multiple reports in which public security officials allegedly 
employed various torture measures, including beatings, electric 
shock, cigarette burnings, and sleep deprivation.\13\ In 
January 2011, the Guardian reported on the December 2010 death 
of local police chief Xie Zhigang in Benxi city, Liaoning 
province, who reportedly died from a heart attack within a day 
of his detention. Xie's wife disputed the police account and 
claimed Xie died as a result of torture, stating, ``There were 
bruises all over [Xie's] body, and deep scars on his wrist and 
ankles. Five of his ribs were broken.'' \14\ In March 2011, 
human rights lawyer Zhang Kai released a video of Qian Chengyu, 
a witness to the murder of village leader and petitioner Qian 
Yunhui. In the February 2011 video, Qian Chengyu described how 
public security officials beat him for five hours and deprived 
him of sleep for thirty hours and explained that the injuries 
prevented him from standing for a month.\15\
    In response to a spate of high-profile suspicious deaths 
and increased public scrutiny since 2009, Chinese law 
enforcement agencies reportedly have ordered an overhaul of 
prisons and detention centers. In 2009 and 2011, Chinese 
agencies released various guidelines intended to improve 
oversight responsibilities and enhance supervision of detainees 
in detention centers.\16\ In early 2011, the Ministry of Public 
Security reportedly delivered a draft revision of the Detention 
Regulations, the first revision since the Detention Regulations 
were enacted in 1990.\17\ In February 2011, Xinhua reported 
that in a nationwide campaign to improve oversight of detention 
centers, prosecutors found 2,207 detention center ``bullies'' 
and prosecuted 123 suspected crimes.\18\ In a March 2011 China 
News Weekly interview, Sun Qian, Deputy Procurator-General of 
the Supreme People's Procuratorate, said that abnormal deaths 
in recent years had ``exposed problems in prison administration 
law enforcement'' and had resulted in reportedly ``thorough'' 
official investigations into prisons and detention centers.\19\

                   Arrest and Trial Procedure Issues


                           ACCESS TO COUNSEL


    The right to legal counsel in criminal trials is not a 
guaranteed legal right for all defendants in China, even though 
the PRC Criminal Procedure Law (CPL) and the PRC Lawyers Law 
provide guidelines for legal representation in criminal 
trials.\20\ Chinese law grants all criminal defendants the 
right to hire an attorney, but only guarantees legal defense if 
the defendant is a minor, faces a possible death sentence, or 
is blind, deaf, or mute. Although the Chinese government has 
increased funding for legal assistance in recent years, most 
criminal defendants approach the legal system without access to 
legal assistance. [For more information on developments in 
China's legal aid system, see Section III--Access to Justice.] 
This remains counter to provisions under Article 14(3)(d) of 
the International Covenant on Civil and Political Rights, which 
grant the right to defend oneself in person or through legal 
assistance.\21\
    Chinese criminal defendants face two primary obstacles--
referred to on occasion as the ``two lows'' (liang di)--in 
securing criminal defense counsel: The low rate of active 
representation by lawyers in criminal cases and the low quality 
of criminal defense.\22\ Most Chinese defendants confront the 
criminal process without the assistance of an attorney.\23\ 
According to a February 2011 Beijing Review article, a 
professor at China University of Political Science and Law 
noted that 80 to 90 percent of criminal defendants in China are 
unable to hire a lawyer.\24\ In addition, the higher proportion 
of risks associated with criminal defense work--as compared 
with those of civil and commercial work--continues to impact 
the quality of criminal representation.\25\ In recent years, 
lawyers have been illegally detained, criminally punished, 
beaten, summoned, and disbarred for performing their legal 
responsibilities.\26\
    Chinese lawyers also remain vulnerable to prosecution under 
Article 306 of the PRC Criminal Law (commonly referred to as 
the ``lawyer-perjury'' statute), a legal provision on evidence 
fabrication that specifically targets criminal defense 
attorneys.\27\ While harassment of lawyers takes many forms in 
China, from prosecution for corruption to threats and physical 
violence, a disproportionately high number of such cases 
involve charges of evidence fabrication.\28\ Many evidence 
fabrication cases are brought under Article 306, which makes it 
a crime for defense attorneys or other defense agents to 
``destroy or forge evidence, help any parties destroy or forge 
evidence, or coerce or entice witnesses into changing their 
testimony in defiance of the facts or giving false testimony.'' 
\29\ Because of the risks presented by Article 306, most 
defense attorneys reportedly engage in passive defense: they 
focus on finding flaws and weaknesses in the prosecutors' 
evidence rather than actively collecting evidence or conducting 
their own investigations.\30\ Chinese criminal defense lawyers 
acknowledge that the threat of Article 306 of the PRC Criminal 
Law--also commonly referred to as ``Big Stick 306''--gives 
prosecutors ``unlimited power'' to intimidate lawyers and 
derail criminal defense work.\31\
    Specific cases involving Article 306 of the PRC Criminal 
Law continued to be featured prominently in national Chinese 
news and in ongoing debates over Article 306. In June 2011, for 
instance, leading Chinese scholars and lawyers criticized the 
high profile case against four criminal defense lawyers--Yang 
Zaixin, Yang Zhonghan, Luo Sifang, and Liang Wucheng--in Beihai 
city, Guangxi Zhuang Autonomous Region.\32\ The four criminal 
defense attorneys were representing criminal suspect Pei Jinde, 
accused in a murder trial, when the testimonies of three 
defense witnesses challenged the prosecution's case.\33\ 
Authorities later detained the four attorneys on suspicion of 
committing ``witness tampering'' under Article 306 and arrested 
the defense witnesses, who were indicted on perjury charges. On 
June 28, 2011, public security officials formally arrested 
rights lawyer Yang Zaixin on suspicion of violating Article 
306.\34\ The three remaining criminal defense lawyers were 
reportedly released on bail pending trial on suspicion of 
similar charges.\35\ In July 2011, China University of 
Political Science and Law Professor Chen Guangzhong told 
Oriental Outlook Magazine that the formal arrest of Yang Zaixin 
was ``wrongful'' and that, based on disclosed information, the 
four lawyers were fulfilling their professional 
obligations.\36\ In July 2011, the Global Times, which operates 
under the official People's Daily, reported that more than 30 
unidentified persons attacked lawyers from Beijing municipality 
and Shandong and Yunnan provinces who had travelled to Beihai 
to represent lawyer Yang Zaixin.\37\ According to the Global 
Times article, the assailants reportedly demanded the lawyers 
not represent client Yang and that they leave immediately.\38\
    Chinese legal scholars this past year continued to urge 
revision of the PRC Criminal Procedure Law, which is reportedly 
on the National People's Congress agenda, to address the 
problem of Article 306 and other longstanding issues related to 
criminal defense counsel. Such longstanding issues include the 
commonly referred to ``three difficulties'' (san nan) of 
criminal defense: Gaining access to detained clients, reviewing 
the prosecutors' case files, and collecting evidence.\39\ 
Although authorities amended the 2008 PRC Lawyers Law to 
address these issues, inconsistencies between the PRC Lawyers 
Law and the 1997 PRC Criminal Procedure Law remain. In January 
2011, several criminal defense lawyers, interviewed by the 
Legal Weekly, expressed growing frustrations over limitations 
within criminal defense work. In addition to the widely 
discussed ``three difficulties,'' prominent Beijing criminal 
defense lawyer Xu Lantang raised ``ten difficulties''--
including the difficulty of getting witnesses to appear in 
court, the difficulty of getting a hearing for trial on appeal, 
and the difficulty of participating in the death penalty review 
process.\40\ According to the article, criminal defense 
lawyers' primary obstacle is having innocence claims accepted 
by people's courts.\41\ A January 2011 Legal Daily article said 
that the challenges to successfully representing criminal 
defendants have led to a decline in the rate of legal 
representation of criminal defendants in China.\42\


                      FAIRNESS OF CRIMINAL TRIALS


    Chinese lawyers and criminal defendants continue to face 
numerous obstacles in ensuring the application of the right to 
a fair trial. Although judicial independence is enshrined in 
the 1997 PRC Criminal Procedure Law, Chinese judges regularly 
receive political guidance on pending cases, including 
instructions on how to rule, from both the government and the 
Communist Party.\43\ Closed trials, undue political influence, 
and a lack of transparency in judicial decisionmaking remain 
commonplace within the justice system. For criminal suspects 
that reach the trial stage, the likelihood of a guilty verdict 
is great. According to 2010 official statistics from the 
Supreme People's Court, the conviction rate for criminal cases 
was 98.12 percent.\44\ Chinese officials routinely sentence 
defendants in trials that fall far short of fair trial 
standards set forth in the International Covenant on Civil and 
Political Rights.\45\
    During this reporting year, the Commission has observed 
several notable cases in which Chinese judicial authorities 
failed to provide transparency and uphold defendants' fair 
trial rights in accordance with domestic and international law. 
In March 2011, for instance, the Suining Intermediate People's 
Court in Sichuan province sentenced democracy advocate Liu 
Xianbin, a signatory to Charter 08 (a treatise advocating 
political reform and human rights), to 10 years' imprisonment 
for ``inciting subversion of state power.'' \46\ Authorities 
reportedly denied Liu access to a lawyer for months, which 
appeared to contravene protections in the PRC Lawyers Law.\47\ 
[For more information about Liu Xianbin, see Section III--
Institutions of Democratic Governance.] In August 2011, the 
Chaoyang District People's Court in Beijing city tried rights 
advocate Wang Lihong for ``creating a disturbance'' in 
connection with her role in organizing a protest outside of a 
Fujian province courthouse on April 16, 2010.\48\ It was not 
until March 2011, nearly 12 months after the protest, that 
Chinese authorities criminally detained Wang.\49\ At Wang's own 
trial in August, Wang's criminal defense lawyer, Han Yicun, 
maintained that the trial was ``unfair,'' since the judge 
interrupted Wang's final statement and did not permit defense 
attorney Han to finish his defense statement.\50\ In addition, 
the criminal defense attorneys were unable to photocopy court 
documents or present arguments before the indictment.\51\ In 
September, the court sentenced Wang to nine months in prison 
for ``creating a disturbance.'' \52\ Additionally, in the past 
year, the UN Working Group on Arbitrary Detention released 
Opinion No. 15/2011, which found that the December 2009 
criminal case against prominent intellectual Liu Xiaobo ``was 
organized in [a] way which constitutes a breach of fairness.'' 
\53\
    In June 2010, two regulations took effect that prohibit 
convictions based on illegally obtained evidence.\54\ According 
to a November 2010 Oriental Outlook Weekly article, however, 
fewer than 20 percent of lawyers surveyed had used the 
regulations, and many alleged that the regulations lacked 
enforceability.\55\ In January 2011, a Procuratorial Daily 
article addressed the reasons behind enforcement obstacles and 
why the implemented guidelines lack force.\56\ The article 
noted that the evidence regulations ``possess their own 
inherent flaws,'' ``easily result in different 
interpretations,'' and suffer from the prejudices of judicial 
officials.\57\

                   Human Rights Lawyers and Defenders

    Amid a broad crackdown against human rights advocates that 
began in February 2011, authorities in Beijing municipality and 
Guangzhou city, Guangdong province, detained at least five 
prominent human rights lawyers in late February or early March 
2011, including Teng Biao, Tang Jitian, Jiang Tianyong, and 
Tang Jingling.\58\ Chinese officials detained other human 
rights lawyers, such as Li Fangping and Li Xiongbing, for 
briefer periods in April and May 2011.\59\ In at least some 
instances, authorities required those released to sign 
``letters of guarantee.'' \60\ According to one unnamed human 
rights lawyer, the ``letters'' required that those released 
guarantee not to commit certain acts, including criticizing the 
Communist Party, participating in training by overseas 
organizations, and communicating with overseas 
organizations.\61\ As a result, released human rights lawyers 
declined to speak to the media about their detentions.\62\
    The following are examples from the past year of official 
mistreatment of Chinese human rights lawyers and defenders.

        <bullet> In February 2011, security officials in 
        Shandong province reportedly beat self-trained legal 
        advocate Chen Guangcheng and his wife Yuan Weijing. The 
        reported beatings followed the couple's covert 
        recording of video footage in which they described the 
        official surveillance, intimidation, harassment, and 
        abuse their family has endured since Chen's release 
        from prison after serving his full sentence on 
        September 9, 2010.\63\
        <bullet> In April 2011, Beijing-based human rights 
        lawyer Jin Guanghong disappeared amid a number of 
        apparently politically motivated disappearances.\64\ 
        After a Beijing psychiatric hospital reportedly 
        released Jin 10 days later, he was in an ``extremely 
        weak physical and mental state.'' \65\ Jin alleged he 
        was beaten and vaguely recalled receiving injections 
        while tied to a bed.\66\ He was unable to fully recall 
        the circumstances surrounding his detention.\67\ In 
        recent years, Jin had defended a member of the banned 
        Falun Gong spiritual movement in Guangzhou city, 
        Guangdong province, and had participated on the legal 
        defense team in a high-profile 2010 criminal defamation 
        case in Fujian province.\68\ [For more information on 
        conditions for Falun Gong practitioners, see Section 
        II--Freedom of Religion--Falun Gong.]
        <bullet> In April 2011, public security officials in 
        Beijing detained housing rights advocate and former 
        lawyer Ni Yulan on suspicion of ``creating a 
        disturbance.'' \69\ The criminal detention of Ni and 
        the disappearance of her husband followed months of 
        police harassment, which included surveillance and 
        disruptions in their electricity, water, and Internet 
        services.\70\ Ni is confined to a wheelchair reportedly 
        due to chronic medical conditions and alleged official 
        torture suffered over the past decade.\71\

    In 2011, Chinese authorities have continued to pressure 
human rights lawyers who take on sensitive cases by denying 
annual professional license renewals during the ``annual 
inspection and assessment process'' (niandu jiancha kaohe), 
which justice departments throughout the country completed in 
July 2011.\72\ Lawyers that participate in politically 
``sensitive'' cases--including those involving workers' rights, 
religious freedom, and political reform--frequently fail to 
have their professional licenses renewed during the annual 
assessment.\73\ As of mid-July 2011, justice departments failed 
to renew the professional licenses of at least four human 
rights lawyers, including Liu Xiaoyuan, Cheng Hai, Li Jinglin, 
and Li Baiguang.\74\ In July 2011, a Caijing article reported 
that some lawyers viewed the annual assessment system as a 
``tool to suppress disobedient lawyers.'' \75\ The article 
claimed that prominent rights lawyer Liu Xiaoyuan failed to 
pass the 2011 ``annual inspection and assessment process'' as a 
result of offending officials.\76\ In a subsequent posting on 
his personal blog, however, Liu denied offending any 
individuals prior to failing to have his professional license 
renewed.\77\
    The whereabouts and condition of prominent human rights 
lawyer Gao Zhisheng, who angered Chinese authorities by 
exposing human rights abuses and representing marginalized 
citizens and religious practitioners, remain unknown. Weeks 
after reportedly reappearing publicly in late March 2010, Gao 
``disappeared'' again in mid-April 2010.\78\ In January 2011, 
the Associated Press released information from an April 2010 
interview with Gao in which he confirmed being tortured 
extensively during detention.\79\ In February 2011, Freedom 
Now, a U.S.-based non-governmental organization that represents 
individual prisoners of conscience, publicly released a 
November 2010 statement from the UN Working Group on Arbitrary 
Detention in which the UN agency demanded the Chinese 
government ``proceed to an immediate release of [Gao] and 
provide for reparation of the harm caused as a result of his 
situation.'' \80\

                          Arbitrary Detention

    Arbitrary detention in China takes many forms and continues 
to be widely used by Chinese authorities to quell local 
petitioners, government critics, and rights advocates. Among 
the forms of arbitrary extralegal and illegal detention are:

        <bullet> ``enforced disappearances'';
        <bullet> ``soft detention'' (ruanjin), a range of 
        extralegal controls under which individuals may be 
        subjected to home confinement, surveillance, restricted 
        movement, and limitations on contact with others;
        <bullet> reeducation through labor, an administrative 
        detention of up to four years for minor offenses;
        <bullet> ``black jail'' (hei jianyu) detentions; and
        <bullet> forcible detention in psychiatric hospitals 
        for non-medical reasons.

``Shuanggui,'' another form of extralegal detention, is used by 
the Communist Party for investigation of Party members, most 
often in cases of suspected corruption. The UN Working Group on 
Arbitrary Detention (UNWGAD) defines the deprivation of 
personal liberty to be ``arbitrary'' if it meets one of the 
following criteria: (1) There is no clear legal basis for the 
deprivation of liberty; (2) an individual is deprived of his 
liberty for having exercised rights guaranteed under the 
Universal Declaration of Human Rights (UDHR) and the 
International Covenant on Civil and Political Rights (ICCPR); 
or (3) there is grave non-compliance with fair trial standards 
set forth in the UDHR and other international human rights 
instruments.\81\ In addition, many forms of arbitrary detention 
also appear to contravene protections within China's 
Constitution and domestic laws.\82\ In this past year, for 
example, UNWGAD issued two opinions declaring that the Chinese 
government's imprisonment of prominent intellectual Liu Xiaobo 
and house arrest of his wife Liu Xia contravene the UDHR and 
amount to arbitrary detentions. The opinions call on Chinese 
officials to immediately release Liu Xiaobo, immediately end 
Liu Xia's house arrest, and provide reparations to both 
persons.\83\


                        ENFORCED DISAPPEARANCES


    During the 2011 reporting year, the Commission observed 
numerous reported cases of Chinese citizens who went 
``missing'' or ``disappeared'' into official custody with 
little or no information about their whereabouts or potential 
charges against them. In an April 8, 2011, press release, the 
UN Working Group on Enforced or Involuntary Disappearances 
(UNWGEID) expressed ``serious concern at the recent wave of 
enforced disappearances that allegedly took place in China over 
the last few months,'' adding that it had received ``multiple 
reports of a number of persons having [been] subject to 
enforced disappearance . . . .'' \84\ Article 2 of the 
International Convention for the Protection of All Persons from 
Enforced Disappearance defines ``enforced disappearance'' as 
follows: ``the arrest, detention, abduction or any other form 
of deprivation of liberty by agents of the State or by persons 
or groups of persons acting with the authorization, support or 
acquiescence of the State, followed by a refusal to acknowledge 
the deprivation of liberty or by concealment of the fate or 
whereabouts of the disappeared person, which place such a 
person outside the protection of the law.'' \85\ In late May, 
Chinese Human Rights Defenders reported that at least 22 
prominent Chinese rights advocates--including well-known artist 
and public advocate Ai Weiwei, petitioner Zhou Li, and writer 
Gu Chuan--had been subjected to enforced disappearances, some 
for as long as 70 days.\86\ In June, UNWGEID issued a press 
release expressing ``serious concern'' over all persons 
subjected to enforced disappearance in China, including the 300 
Tibetan monks whom security personnel allegedly removed from 
Kirti Monastery, Aba county, Aba Tibetan and Qiang Autonomous 
Prefecture, Sichuan province, on April 21, 2011.\87\


------------------------------------------------------------------------
            Draft Amendment to the PRC Criminal Procedure Law
-------------------------------------------------------------------------
  In August 2011, the National People's Congress Standing Committee
 (NPCSC) reviewed a draft amendment to the PRC Criminal Procedure Law
 (CPL), which includes 99 amendments to the current CPL.\88\ Chinese
 state-run media has reported that any revised draft amendment approved
 by the NPCSC will likely be deliberated upon and passed by the plenary
 session of the National People's Congress in March 2012.\89\
  According to state-run media reports, legal scholars have said the CPL
 draft revisions ``will help improve the protection of criminal
 suspects' human rights'' \90\ and have said the draft amendment
 complies with international standards.\91\ The CPL draft amendment
 includes revisions that would aim to prohibit forced self-
 incrimination,\92\ and bar collecting evidence obtained through
 torture.\93\ The draft amendment explicitly states that Chinese
 criminal defense attorneys are not to be monitored when meeting
 criminal defendants in custody.\94\
  International organizations and news media outlets have raised
 concerns that specific amendment revisions, however, would legalize the
 current practice of forcibly ``disappearing'' rights advocates in
 violation of international standards.\95\ The revisions allow Chinese
 police, in cases involving national security, terrorism, or major
 instances of bribery, to keep criminal suspects under residential
 surveillance at a fixed location outside of their homes, with approval
 from an upper level procuratorate or security organ, for up to six
 months, if keeping them at their homes would likely ``hinder an
 investigation.'' \96\ The revisions also would permit Chinese police to
 withhold information about this form of ``house arrest'' in the case of
 suspected state security or terrorism cases, if they believed that
 notifying relatives, as normally required, could ``hinder the
 investigation.'' \97\ Under the International Convention for the
 Protection of All Persons from Enforced Disappearance, a state commits
 a crime of enforced disappearance when its agents arrest, detain,
 abduct, or otherwise deprive a person of liberty and then deny holding
 the person or conceal the fate or whereabouts of the person.\98\
 Chinese lawyers and media organizations have also criticized these
 provisions for having the potential to undermine human rights
 protections.\99\ In September 2011, for instance, an editorial in the
 official newspaper China Daily acknowledged potential loopholes: ``For
 one thing, the crime of endangering state security is a vague and
 sprawling conception. Without proper definition and limitations, it is
 highly vulnerable to abuse. The impossibility of notification and the
 possibility of impeding investigations are even harder to define and
 clarify.'' \100\
------------------------------------------------------------------------

                     ``SOFT DETENTION'' AND CONTROL


    During this reporting year, the Commission noted various 
reports of law enforcement authorities continuing to use ``soft 
detention'' (ruanjin) to control and intimidate Chinese 
citizens.\101\ Those under ``soft detention'' may be subject to 
various forms of harassment, including home confinement, 
surveillance, restricted movement, and limited contact with 
others.\102\ The ``soft detention'' that numerous human rights 
defenders, advocates, and their family members are subjected to 
has no basis in Chinese law and constitutes arbitrary detention 
under international human rights standards.
    In the period surrounding the Nobel Peace Prize award 
ceremony in late 2010, Chinese authorities used ``soft 
detention'' measures on more than 100 prominent human rights 
advocates and associates of 2010 Nobel Peace Prize award 
recipient Liu Xiaobo.\103\ The Commission also noted that in 
2011, authorities placed many rights defenders under ``soft 
detention'' after releasing them from official custody. The 
following are some notable ``soft detention'' cases from the 
past year:

        <bullet> From October 2010 to December 2010, state 
        security officials in Wuxi city, Jiangsu province, and 
        Beijing municipality held Ding Zilin, a representative 
        of the Tiananmen Mothers (an advocacy organization of 
        1989 Tiananmen protest victims' relatives), and her 
        husband Jiang Peikun under ``soft detention'' for a 
        period of 74 days. The couple was unable to access all 
        forms of communication and unable to contact relatives, 
        friends, and fellow rights advocates.\104\
        <bullet> In February 2011, a publicly released homemade 
        video of legal advocate Chen Guangcheng showed Chen and 
        his family under ``soft detention'' in Dongshigu 
        village, Linyi city, Shandong province.\105\ Chen and 
        his family have been under ``soft detention'' since 
        September 2010, when he completed a 51-month sentence 
        for disturbing public order and destroying public 
        property.\106\
        <bullet> In April 2011, public security officers 
        reportedly placed Jin Tianming, a Protestant pastor, 
        and 500 members of the Shouwang Church in Beijing under 
        ``soft detention'' after several outdoor worship 
        services organized by the Shouwang Church.\107\


                    REEDUCATION THROUGH LABOR (RTL)


    Public security officers continued to use the reeducation 
through labor (RTL) system to silence critics and to circumvent 
the criminal procedure process. RTL is an administrative 
measure that allows Chinese law enforcement officials to order 
Chinese citizens, without legal proceedings or due process, to 
serve a period of administrative detention of up to three 
years, with the possibility of up to one year extension.\108\ 
While the Bureau of Reeducation Through Labor Administration 
maintains that the RTL system has been established ``to 
maintain public order, to prevent and reduce crime, and to 
provide compulsory educational reform to minor offenders,'' 
\109\ authorities frequently use RTL to punish, among others, 
dissidents, drug addicts, petitioners, Falun Gong adherents, 
and religious practitioners who belong to religious groups not 
approved by the government.\110\
    During this reporting year, the Commission observed 
numerous accounts of RTL orders violating the legal rights of 
Chinese citizens, specifically their right to a fair trial and 
right to be protected from arbitrary detention. In November 
2010, an RTL committee in Henan province ordered rights 
defender Cheng Jianping (who uses the pseudonym Wang Yi) to 
serve one year of RTL. Authorities alleged that Cheng 
``disturbed social order'' when, in October 2010, she re-
tweeted a Twitter message from her fiance regarding anti-
Japanese protests following a fishing incident between China 
and Japan in disputed waters.\111\ The tweet was reportedly 
satirical in tone and urged demonstrators to protest at the 
Japanese pavilion at the Shanghai 2010 World Expo.\112\ In 
March 2011, Chinese authorities ordered rights advocate Yang 
Qiuyu to serve two years of RTL for ``creating a disturbance.'' 
\113\ The RTL order claimed that Yang had ``incited'' 
petitioners to go to Tiananmen Square, Wangfujing Street, and 
other locations in Beijing to cause ``trouble.'' \114\ In July 
2011, Shanghai authorities released Shanghai petitioner Mao 
Hengfeng after she served 18 months of RTL for ``disturbing the 
social order.'' \115\ According to her husband Wu Xuewei, Mao 
was subjected to physical and mental torture while serving her 
RTL order.\116\ After her release, Wu said that Mao, who 
arrived home in a wheelchair, was unable to speak and did ``not 
have the strength to walk.'' \117\ Mao was initially released 
on medical parole in February 2011, but officials detained Mao 
again two days later for unspecified ``illegal activities.'' 
\118\
    Human rights advocates and legal experts in China have been 
calling for an end to RTL for decades. In August 2010, on the 
eve of the 53rd anniversary of the establishment of China's RTL 
system, a number of Chinese scholars, lawyers, and advocates 
publicly released a ``civil rights advocacy letter'' calling on 
the government to immediately abolish the ``Decision of the 
State Council Regarding the Question of Reeducation Through 
Labor'' and other administrative regulations that form the 
legal basis for RTL.\119\ The letter stated that current RTL 
provisions that permit detention without a judicial trial are 
unconstitutional and violate Chinese domestic laws and 
regulations, including the PRC Legislation Law and the PRC 
Administrative Punishment Law.\120\ In February 2011, the 
advocates reportedly planned to send the signed letter, with 
over 1,000 signatures, to the National People's Congress 
Standing Committee.\121\


              ``BLACK JAILS'': SECRET DETENTION FACILITIES


    Chinese authorities continued to use ``black jails'' (hei 
jianyu)--secret detention sites established by local 
officials--to detain and punish petitioners who travel to 
Beijing and provincial capitals to voice complaints and seek 
redress for injustices.\122\ Those detained are denied access 
to legal counsel and often denied contact with family members 
or associates.\123\ A December 2010 Human Rights Watch report 
detailed conditions for prisoners in ``black jails'': ``Once 
detained, petitioners are subjected to abuses including 
physical and sexual violence, food and sleep deprivation, 
denial of medical care, and intimidation.'' \124\ [For more 
information about China's petitioning, or xinfang (letters and 
visits), system, see Section III--Access to Justice.]
    In recent years, the Commission has observed reports by 
international and domestic Chinese media organizations on 
``black jails,'' as well as on the network of personnel that 
intercept and abuse petitioners.\125\ In one prominent example 
of domestic reporting, in September 2010, the Southern 
Metropolitan Daily reported on a private security company, 
Anyuanding, which was accused of assisting local governments in 
abducting and detaining petitioners in ``black jails.'' \126\ 
The New York Times reported in late September 2010 that the 
``system of interceptors and black jails has flourished in 
recent years,'' as Chinese petitioners have sought official 
redress in the face of illegal land grabs, official misconduct, 
and other injustices.\127\ In April 2011, the Southern 
Metropolitan Daily reported on the experiences of Sun Yinxia 
and two individuals forcibly detained in a ``black jail'' in 
Sihong county, Jiangsu province, after refusing to sign an 
agreement allowing the local government to demolish their 
houses without adequate compensation.\128\ Village and township 
leaders reportedly watched as unidentified guards forcibly 
detained the ``nail household'' \129\ residents, who reportedly 
were later ``beaten,'' ``sexually harassed,'' and tortured 
during their 12 days of detention.\130\ According to the 
article, local residents said that local officials had detained 
nearly 200 people in the ``black jail'' since it opened in 
2006.\131\ In August 2011, Chinese media reported on a ``black 
jail'' in Changping district, Beijing municipality, after a 
petitioner surnamed Zhou revealed information about her four-
day detention.\132\ According to the Beijing News, several 
``black jail'' ``retrievers'' forcibly detained Zhou after she 
visited a local government office in Beijing.\133\ The ``black 
jail'' personnel reportedly held Zhou and more than 50 
detainees in tight quarters without beds, depriving the 
detainees of their mobile phones and beating some who resisted 
the detention center management. Zhou said that the detainees, 
from several provinces, had been forcibly detained or lured 
into detention.\134\


   SHUANGGUI: EXTRALEGAL INVESTIGATORY DETENTION OF COMMUNIST PARTY 
                                MEMBERS


    During this reporting year, the Commission continued to 
observe Chinese media reporting on the Communist Party's use of 
shuanggui (often translated as ``double regulation'' or 
``double designation''), a form of extralegal detention that 
involves summoning Party members under investigation to appear 
at a designated place at a designated time.\135\ Notable cases 
of high-ranking officials placed under shuanggui included: Liu 
Xiquan, a deputy head of Beijing's Chaoyang district; \136\ 
Zhang Wanqing, Shandong Provincial People's Government 
Secretary-General; \137\ and Zhang Rui, a deputy director at 
the Department of Exchequer in the Ministry of Finance.\138\ 
Shuanggui investigations often precede formal Party 
disciplinary sanctions or the transfer of suspects to law 
enforcement agencies if there has been a violation of the 
criminal law.\139\ The investigations at undisclosed locations 
usually last several months, and officials may extend the 
investigations for over a year.\140\ Those under investigation 
are ``generally held incommunicado and denied some of the 
protections to which criminal suspects are entitled at least in 
principle.'' \141\

------------------------------------------------------------------------
         Legal Scholar Questions Anti-Crime Campaign's Excesses
-------------------------------------------------------------------------
  This past year, authorities in Chongqing municipality, Sichuan
 province, continued a massive, public ``anti-crime'' sweep (known in
 Chinese as ``striking organized crime and uprooting evil'' [dahei
 chu'e]) of criminal syndicates and corrupt officials that netted
 thousands of arrests and raised various concerns about judicial
 independence and procedural rights.\142\ In an April 2011 public
 letter, circulated widely, Beijing-based human rights advocate and
 university professor He Weifang compared the ``movement-style''
 campaign to the turbulent period of the Cultural Revolution.\143\ Of
 the campaign, He writes, ``the Cultural Revolution is being replayed,
 and the ideal of rule of law is right now being lost.'' \144\ He
 publicly questioned the lack of independent adjudicative and
 prosecutorial powers and criticized the public security agencies'
 emphasis on order above all.\145\
------------------------------------------------------------------------

                             Medical Parole

    During this reporting year, Chinese authorities denied 
medical parole and adequate medical treatment to prisoners, 
particularly human rights advocates. The U.S. State Department 
observed in its report on China's human rights situation for 
2010 that ``[a]dequate, timely medical care for prisoners 
remained a serious problem, despite official assurances that 
prisoners have the right to prompt medical treatment.'' \146\ 
In January 2011, Zeng Jinyan, a rights advocate and the wife of 
human rights defender Hu Jia, applied for medical parole on 
behalf of Hu, who suffers from hepatitis and 
cholelithiasis.\147\ As was the case with previous requests, 
authorities denied the appeal for medical parole, despite Hu's 
deteriorating condition.\148\ The Commission noted at least one 
case where untimely medical parole release had likely 
contributed to a decline in a prisoner's medical condition. In 
December 2010, rights advocate Zhang Jianhong, who wrote under 
the pen name Li Hong, died after being released on medical 
parole on June 5, 2010.\149\ Authorities had repeatedly denied 
Zhang medical parole, which resulted in an apparent worsening 
of his condition.\150\
    In addition, authorities appeared to use medical parole as 
a measure to silence rights advocates and defenders. In 
December 2010, authorities released rights advocate Zhao 
Lianhai, the head of an advocacy group for parents of children 
sickened by melamine-tainted milk, on medical parole.\151\ Some 
supporters, however, feared that Zhao's release was intended to 
keep him silent.\152\ In April 2010, Zhao reportedly broke this 
public silence to comment on the broad crackdown on rights 
advocates and to detail the intense pressure he and his family 
were living under.\153\ Police reportedly then threatened to 
rescind Zhao's medical parole if he continued to comment on the 
treatment of human rights advocates.\154\ In February 2011, 
Shanghai authorities terminated the medical parole release of 
Shanghai petitioner Mao Hengfeng, two days after her release 
from a reeducation through labor (RTL) center.\155\ Although 
authorities cited ``illegal activities inconsistent with [the 
stipulations of] medical parole'' as the rationale, they 
reportedly did not specify the alleged ``illegal activities.'' 
\156\ Mao reportedly suffered torture and ill treatment 
throughout her RTL detention.\157\

                           Capital Punishment

    During this reporting year, the Chinese government 
maintained its policy of not releasing details on the thousands 
of prisoners reportedly executed annually and continued to keep 
information on the death penalty a state secret. Chinese 
officials also maintained the stated goal of limiting the 
number of executions. In March 2011, for instance, Supreme 
People's Court (SPC) President Wang Shengjun emphasized the 
state policy of ``strictly controlling and carefully applying 
the death penalty'' and urged ``improving the death penalty 
review process'' in his report to the annual session of the 
National People's Congress.\158\ In May 2011, the SPC stated in 
its annual 2010 work report that courts should suspend death 
sentences for two years, if the criminal circumstances do not 
require an ``immediate execution.'' \159\ On February 25, 2011, 
the National People's Congress Standing Committee (NPCSC) 
passed the eighth amendment to the PRC Criminal Law, which 
reduced the number of crimes punishable by the death penalty 
from 68 to 55.\160\ As the revision was the first time the 
Chinese legislature reduced the number of crimes subject to 
capital punishment since enacting the PRC Criminal Law in 1979, 
the country's official media heralded the reform as a step ``to 
restructure its penalty system and better protect human 
rights.'' \161\ In an August 2010 Southern Weekend article on 
the then proposed amendment, a member of the National People's 
Congress Legal Committee pointed out that authorities rarely, 
if ever, applied the death penalty for the 13 crimes under 
consideration for reclassification as non-capital 
offenses.\162\

                                Endnotes

    \1\ Chinese Human Rights Defenders, ``Twenty-Two Years After 
Tiananmen Massacre, Worst Repression in a Generation,'' 2 June 11; 
Tania Branigan, ``Crackdown in China Spreads Terror Among Dissidents,'' 
Guardian, 31 March 11.
    \2\ Chinese Human Rights Defenders, ``U.S. Must Voice Concerns Over 
China's Assault on Human Rights Lawyers During the Upcoming Legal 
Experts Dialogue With China,'' 7 June 11; ``China Cracking Down on 
Rights Lawyers: Amnesty,'' Agence France-Presse, 29 June 11; Andrew 
Jacobs and Jonathan Ansfield, ``China's Intimidation of Dissidents Said 
To Persist After Prison,'' New York Times, 17 February 11.
    \3\ ``Authorities Crack Down on Rights Defenders, Lawyers, Artists, 
Bloggers,'' Congressional-Executive Commission on China, 3 May 11.
    \4\ Chinese Human Rights Defenders, ``Individuals Affected by the 
Crackdown Following Call for `Jasmine Revolution,' '' 18 April 11.
    \5\ Tania Branigan, ``Fears Grow After Chinese Human Rights Lawyer 
Detained,'' Guardian, 18 February 11.
    \6\ Human Rights in China, ``Lawyers and Activists Detained, 
Summoned, and Harassed in `Jasmine Rallies' Crackdown,'' 23 February 
11; ``China Releases Detained Activist,'' New York Times, 29 April 11.
    \7\ Tania Branigan, ``Chinese Lawyer Beaten Ahead of Jasmine 
Revolution Protests,'' Guardian, 21 February 11.
    \8\ Chinese Human Rights Defenders, ``Chinese Reactions to Liu 
Xiaobo's Nobel Peace Prize--From Both Sides,'' 3 January 11; Human 
Rights in China, ``Lawyers and Activists Detained, Summoned, and 
Harassed in `Jasmine Rallies' Crackdown,'' 23 February 11.
    \9\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217 A (III) of 10 December 48, arts. 
3, 5, 9, 19, 20 [hereinafter UDHR]; International Covenant on Civil and 
Political Rights, adopted by UN General Assembly resolution 2200A (XXI) 
of 16 December 66, entry into force 23 March 76, arts. 7, 9(1), 19(1), 
19(2), 21, 22(1) [hereinafter ICCPR]; PRC Constitution, enacted and 
effective 4 December 82, amended 12 April 88, 29 March 93, 15 March 99, 
14 March 04, arts. 35 (freedom of speech, press, assembly), 37 (freedom 
of person), 41 (right to criticize state organ or functionary).
    \10\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, arts. 247, 248; PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
enacted 1 July 79, amended 17 March 96, effective 1 January 97, art. 
43.
    \11\ UN Committee against Torture, 41st Session, Consideration of 
Reports Submitted by State Parties Under Article 19 of the Convention: 
Concluding Observations of the Committee against Torture--China, CAT/C/
CHN/CO/4, 12 December 08, para. 11.
    \12\ UN Committee against Torture, ``Request for Further 
Clarification,'' 29 October 10.
    \13\ See, e.g., ``Chinese Dissident Writer, Freed After 5 Years in 
Jail, Says Treatment Was `Beyond Imagination,' '' Associated Press, 
reprinted in Washington Post, 14 September 11; Peter Foster, ``Chinese 
Dissidents Describe Physical and Mental Torture at Hands of Regime,'' 
Telegraph, 14 September 11; ``Missing China Dissident Recounted 
Abuse,'' Agence France-Presse, reprinted in Taipei Times, 12 January 
11; Tania Branigan, ``Chief's Widow Alleges Torture After He Dies in 
Custody,'' Guardian, 14 January 11; ``Benxi City `Xie Zhigang Incident' 
Interview With the Joint Investigation Team Leader'' [Benxi shi 
``xiezhigang shijian'' lianhe diaocha zu fuze ren jieshou jizhe 
caifang], Northeast News, 13 January 11; Tania Branigan, ``Chinese 
Activists Seized in Human Rights Crackdown Accuse Authorities of 
Torture,'' Guardian, 13 September 11; Jiang Li, ``State Tax Cadre 
`Commits Suicide' in Prison; Prison Refuses to Accept Responsibility'' 
[Guoshui ganbu jianyu zhong ``bei zisha,'' jianyu ju bu chengdan 
zeren], Boxun, 25 January 11.
    \14\ Tania Branigan, ``Chief's Widow Alleges Torture After He Dies 
in Custody,'' Guardian, 14 January 11; ``Benxi City `Xie Zhigang 
Incident' Interview With the Joint Investigation Team Leader'' [Benxi 
shi ``xie zhigang shijian'' lianhe diaocha zu fuze ren jieshou jizhe 
caifang], Northeast News, 13 January 11.
    \15\ Yan Jianbiao, `` `Yueqing Case' Witness Suffers Torture To 
Extract Confession'' [``Yueqing an'' zhengren zhi zao xingxun bigong], 
Caijing, 24 March 11.
    \16\ Wang Quanbao, ``SPP Sun Qian, Deputy Procurator General: Do 
Not Allow Unexpected Deaths in the Detention Centers'' [Zuigao jian fu 
jiancha zhang sun qian: bu yunxu kanshousuo chuxian yiwai siwang], 
China News Weekly, reprinted in Sina, 10 March 11.
    \17\ Wang Lina, `` `Detention Regulations' Draft Revision 
Submitted: To Respect Prisoners as Human'' [``Kanshousuo tiaoli'' 
xiuding cao'an yi shangbao: ba fanren dang ren lai zunzhong], China 
Youth On line, 9 March 11.
    \18\ ``China Pushes Forward Judicial Reform by Enhancing 
Supervision, Person-Centered Care,'' Xinhua, 20 February 11.
    \19\ Wang Quanbao, ``SPP Sun Qian, Deputy Procurator General: Do 
Not Allow Unexpected Deaths in the Detention Centers'' [Zuigao jian fu 
jiancha zhang sun qian: bu yunxu kanshousuo chuxian yiwai siwang], 
China News Weekly, reprinted in Sina, 10 March 11.
    \20\ According to Article 34 of the PRC Criminal Procedure Law, the 
court ``shall designate a lawyer that is obligated to provide legal aid 
to serve as a defender'' if the defendant does not have a lawyer and is 
blind, deaf, mute, a minor, or facing the possibility of a death 
sentence. In cases in which the criminal defendant ``has not entrusted 
anyone to be his defender due to financial difficulties or other 
reasons, the People's Court may designate a lawyer that is obligated to 
provide legal aid to serve as a defender.'' Article 42 of the PRC Law 
on Lawyers states that lawyers must fulfill their obligations to 
provide legal aid services. For more information see the texts: PRC 
Criminal Procedure Law [Zhonghua renmin gongheguo xingshi susong fa], 
enacted 1 July 79, amended 17 March 96, effective 1 January 97, art. 
34; PRC Lawyers Law [Zhonghua renmin gongheguo lushi fa], enacted 15 
May 96, amended 29 December 01, revised 28 October 07, effective 1 June 
08, art. 42.
    \21\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76.
    \22\ Zhang Youyi, ``High Risks Result in Low Defense Rates, 
Criminal Defense Lawyers Face Six Problems'' [Gao fengxian zhishi 
bianhu lu di xingshi bianhu lushi mianlin liu nanti], Legal Daily, 
reprinted in Xinhua, 6 January 08.
    \23\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Report on Human Rights Practices--2009, China 
(includes Tibet, Hong Kong, and Macau), 11 March 10.
    \24\ Yuan Yuan, ``Aiding in Defense,'' Beijing Review, 6 February 
11.
    \25\ Zhang Youyi, ``High Risks Result in Low Defense Rates, 
Criminal Defense Lawyers Face Six Problems'' [Gao fengxian zhishi 
bianhu lu di xingshi bianhu lushi mianlin liu nanti], Legal Daily, 
reprinted in Xinhua, 6 January 08.
    \26\ Amnesty International, ``Against the Law: Crackdown on China's 
Human Rights Lawyers Deepens,'' June 2011, 3, 24-27, 45-50; Paul 
Mooney, ``Silence of the Chinese Dissidents,'' South China Morning 
Post, 4 July 11; Zhang Youyi, ``High Risks Result in Low Defense Rates, 
Criminal Defense Lawyers Face Six Problems'' [Gao fengxian zhishi 
bianhu lu di xingshi bianhu lushi mianlin liu nanti], Legal Daily, 
reprinted in Xinhua, 6 January 08.
    \27\ Patrick Kar-wai Poon, China Human Rights Lawyers Concern 
Group, ``Rights Defense Lawyers and the Rule of Law in China,'' 18 May 
11. For CECC analysis on Article 306, see, e.g., ``Defense Lawyers 
Turned Defendants: Zhang Jianzhong and the Criminal Prosecution of 
Defense Lawyers in China,'' Congressional-Executive Commission on 
China, 27 May 03.
    \28\ Yanfei Ran, ``When Chinese Criminal Defense Lawyers Become the 
Criminals,'' Fordham International Law Journal, Vol. 32, Issue 3 
(2008), 988, 1023; `` `Big Stick 306' and China's Contempt for the 
Law,'' New York Times, 5 May 11.
    \29\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, 25 February 11, art. 306.
    \30\ ``Ignoring Facts and Law as a Concession to Popular Will 
Actually Contravenes the Will of the People'' [``Weile qianjiu minyi 
bugu shishi he falu cai shi zhenzheng weibei minyi''], China Youth 
Daily, 18 June 09. For more information about Article 306, see CECC, 
2010 Annual Report, 10 October 10, 90.
    \31\ `` `Big Stick 306' and China's Contempt for the Law,'' New 
York Times, 5 May 11.
    \32\ Human Rights in China, ``Guangxi Rights Defense Lawyer Yang 
Zaixin Formally Arrested,'' 5 July 11.
    \33\ Ibid.; Li Jiayu, ``Mob Storms Into Hotel, Beats Up Two Defense 
Lawyers,'' Global Times, 20 July 11.
    \34\ Human Rights in China, ``Guangxi Rights Defense Lawyer Yang 
Zaixin Formally Arrested,'' 5 July 11.
    \35\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
June 29-July 6, 2011,'' 6 July 11; Human Rights in China, ``Guangxi 
Rights Defense Lawyer Yang Zaixin Formally Arrested,'' 5 July 11.
    \36\ Chen Guangzhong, ``I Think Arresting These Four Lawyers Is 
Wrong'' [``Wo renwei zhua zhe si ming lushi shi cuowu de''], Oriental 
Outlook, July 2011.
    \37\ Li Jiayu, ``Mob Storms Into Hotel, Beats Up Two Defense 
Lawyers,'' Global Times, 20 July 11. For more information on the 
assault, see ``Lawyers Group Representing Yang Zaixin Attacked and 
Unable To Work'' [Yang zaixin daibiao lushi tuan zao weigong wufa 
gongzuo], Radio Free Asia, 19 July 11.
    \38\ Li Jiayu, ``Mob Storms Into Hotel, Beats Up Two Defense 
Lawyers,'' Global Times, 20 July 11.
    \39\ Sun Jibin, ``How `Three Difficulties' of Criminal Defense 
Became `10 Difficulties' '' [Xingshi bianhu ``san nan'' weihe bian 
``shi nan''], Legal Weekly, 20 January 11; `` `Big Stick 306' and 
China's Contempt for the Law,'' New York Times, 5 May 11.
    \40\ Sun Jibin, ``How `Three Difficulties' of Criminal Defense 
Became `10 Difficulties' '' [Xingshi bianhu ``san nan'' weihe bian 
``shi nan''], Legal Weekly, 20 January 11; Dui Hua Foundation 
``Translation: How `Three Difficulties' of Criminal Defense Became `10 
Difficulties,' '' 2 February 11.
    \41\ Sun Jibin, ``How `Three Difficulties' of Criminal Defense 
Became `10 Difficulties' '' [Xingshi bianhu ``san nan'' weihe bian 
``shi nan''], Legal Weekly, 20 January 11.
    \42\ Ibid.
    \43\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2010 Human Rights 
Report: China (includes Tibet, Hong Kong, and Macau),'' 8 April 11.
    \44\ Supreme People's Court,``Table on Circumstances for Accused in 
2010 China Court Criminal Case Judgments'' [2010 Nian quanguo fayuan 
shenli xingshi anjian beigao ren panjue shengxiao qingkuang biao], 24 
March 11. According to official 2010 criminal adjudication statistics, 
Chinese authorities approved 999 individual acquittals and 17,957 
exemptions from criminal punishment. Chinese authorities imposed 
criminal penalties on 1,007,419 criminal defendants.
    \45\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76.
    \46\ Andrew Jacobs, ``Chinese Democracy Advocate Is Sentenced to 10 
Years,'' New York Times, 25 March 11; Human Rights in China, ``Activist 
Sentenced to Ten Years for Inciting Subversion; Essays Cited as 
Evidence,'' 25 March 11; Chinese Human Rights Defenders, ``Liu Xianbin 
Case Trial Oral Judgment Announcement of 10 Years, Family and Lawyers 
Cannot Visit'' [Liu xianbin an fating koutou xuanpan shi nian xingqi, 
jiaren lushi wufa huijian], 25 March 11; Gillian Wong, ``China 
Sentences Democracy Activist to 10 Years,'' Associated Press, reprinted 
in Yahoo!, 25 March 11.
    \47\ Andrew Jacobs, ``Chinese Democracy Advocate Is Sentenced to 10 
Years,'' New York Times, 25 March 11.
    \48\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
August 10-15, 2011,'' 16 August 11; Human Rights in China, ``Lawyers 
Report Procedural Irregularities at Trial of Rights Activist Wang 
Lihong,'' 13 August 11.
    \49\ Peter Foster, ``Chinese Internet-Activist on Trial,'' 
Telegraph, 12 August 11; ``Chinese Citizens Support Jailed Activist 
Wang Lihong,'' New Tang Dynasty Television, 9 August 11.
    \50\ Human Rights in China, ``Rights Defender Wang Lihong Sentenced 
to Nine Months,'' 9 September 11; Peter Foster, ``Chinese Internet-
Activist on Trial,'' Telegraph, 12 August 11; Human Rights in China, 
``Lawyers Report Procedural Irregularities at Trial of Rights Activist 
Wang Lihong,'' 13 August 11; ``Wang Lihong's `Creating a Disturbance' 
Lawyer Denounces Unfair Trial'' [Wang lihong ``zishi an'' lushi chi 
tingshen bugong], BBC, 12 August 11.
    \51\ Chinese Human Rights Defenders, ``China Human Rights Briefing 
August 10-15, 2011,'' 16 August 11; Peter Foster, ``Chinese Internet-
Activist on Trial,'' Telegraph, 12 August 11; ``Wang Lihong's `Creating 
a Disturbance' Lawyer Denounces Unfair Trial'' [Wang lihong ``zishi 
an'' lushi chi tingshen bugong], BBC, 12 August 11.
    \52\ Human Rights in China, ``Lawyers Report Procedural 
Irregularities at Trial of Rights Activist Wang Lihong,'' 13 August 11; 
Human Rights in China, ``Rights Defender Wang Lihong Sentenced to Nine 
Months,'' 9 September 11.
    \53\ Freedom Now, ``UN Declares Detention of Imprisoned Nobel Peace 
Prize Laureate and Wife Illegal; Calls for Immediate Release,'' 1 
August 11.
    \54\ Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of State Security, and Ministry 
of Justice Circular Regarding the Issue of ``Provisions Concerning 
Questions About Examining and Judging Evidence in Death Penalty Cases'' 
and ``Provisions Concerning Questions About Exclusion of Illegal 
Evidence in Handling Criminal Cases'' [Zuigao renmin fayuan zuigao 
renmin jiancha yuan gongan bu guojia anquan bu sifa bu yinfa ``guanyu 
banli sixing anjian shencha panduan zhengju ruogan wenti de guiding'' 
he ``guanyu banli xingshi anjian paichu feifa zhengju ruogan wenti de 
guiding'' de tongzhi], issued 13 June 10; Provisions Concerning 
Questions About Exclusion of Illegal Evidence in Handling Criminal 
Cases [Guanyu banli xingshi anjian paichu feifa zhengju ruogan wenti de 
guiding], effective 1 July 10, arts. 1, 7; Provisions Concerning 
Questions About Examining and Judging Evidence in Death Penalty Cases 
[Guanyu banli sixing anjian shencha panduan zhengju ruogan wenti de 
guiding], effective 1 July 10, arts. 18(4), 19, 34; Yang Ming and Zhang 
Hailin, ``Staggered Start to `Illegal Evidence Exclusion' '' [Feifa 
``zhengju paichu'' panshan qibu], Oriental Outlook Weekly, November 
2011.
    \55\ Yang Ming and Zhang Hailin, ``Staggered Start to `Illegal 
Evidence Exclusion' '' [Feifa ``zhengju paichu'' panshan qibu], 
Oriental Outlook Weekly, November 2011.
    \56\ Li Guomin, ``Why the Illegal Evidence Exclusionary Regulations 
Cannot Be Strictly Enforced'' [Feifa zhengju paichu guize weihe buneng 
yange zhixing], Procuratorial Daily, 10 January 11.
    \57\ Ibid.
    \58\ Edward Wong, ``Human Rights Advocates Vanish as China 
Intensifies Crackdown,'' New York Times, 11 March 11.
    \59\ ``China Frees Rights Lawyer but Another Disappears,'' Agence 
France-Presse, reprinted in Google, 5 May 11.
    \60\ ``Human Rights Lawyers Suppressed in Different Ways'' [Weiquan 
lushi shou butong xingshi daya], Radio Free Asia, 26 May 11; ``Friend 
Says Chinese Civil Rights Lawyer Resurfaces,'' Associated Press, 
reprinted in Google, 4 May 11; Chris Buckley, ``China Dissident 
Released After U.S. Official's Visit,'' Reuters, 29 April 11.
    \61\ ``Human Rights Lawyers Suppressed in Different Ways'' [Weiquan 
lushi shou butong xingshi daya], Radio Free Asia, 26 May 11.
    \62\ Ibid.; ``Friend Says Chinese Civil Rights Lawyer Resurfaces,'' 
Associated Press, reprinted in Google, 4 May 11; Chris Buckley, ``China 
Dissident Released After U.S. Official's Visit,'' Reuters, 29 April 11.
    \63\ ChinaAid, ``Urgent! Chen and Wife Beaten Severely, Chinese 
Citizens Appeal to America,'' 10 February 11; Ding Xiao, ``Blind 
Activist, Wife Beaten,'' Radio Free Asia, 11 February 11; ChinaAid, 
``Detained Blind Activist Chen Guangcheng's Wife Reveals Details of 
Torture,'' 16 June 11. For CECC analysis, see ``Chen Guangcheng, Wife 
Reportedly Beaten After Release of Video Detailing Official Abuse,'' 11 
March 11.
    \64\ John Zhang, ``The Silencing of China's Human Rights Lawyers,'' 
Epoch Times, 3 March 11.
    \65\ Rona Rui, ``Beijing Rights Lawyer Suffers Memory Loss After 
Ten-Day Detention,'' Epoch Times, 27 April 11; Chinese Human Rights 
Defenders, ``Lawyer Jin Guanghong Tortured, Cannot Remember the Facts 
Surrounding His Disappearance,'' 23 April 11.
    \66\ Clear Harmony, ``Lawyer Jin Guanghong Persecuted and Now 
Suffering From Partial Amnesia,'' 21 May 11.
    \67\ Rona Rui, ``Beijing Rights Lawyer Suffers Memory Loss After 
Ten-Day Detention,'' Epoch Times, 27 April 11; Chinese Human Rights 
Defenders, ``Lawyer Jin Guanghong Tortured, Cannot Remember the Facts 
Surrounding His Disappearance,'' 23 April 11.
    \68\ ``Concern Over Rights Lawyer,'' Radio Free Asia, 13 April 11.
    \69\ Feng Weimin, Chinese Human Rights Defenders, ``Beijing Human 
Rights Lawyer Ni Yulan Criminally Detained'' [Beijing weiquan lushi ni 
yulan bei xingshi juliu], 14 April 11.
    \70\ Chinese Human Rights Defenders, ``Activist Ni Yulan Becomes 
Latest Victim of `Jasmine' Crackdown,'' 14 April 11.
    \71\ Ibid.
    \72\ For CECC analysis, see ``Authorities Deny Human Rights Lawyers 
Professional License Renewals,'' Congressional-Executive Commission on 
China, 10 December 10.
    \73\ China Human Rights Lawyers Concern Group, ``Four Human Rights 
Lawyers Barred From Passing the Annual Assessment,'' 19 July 11; 
Aizhixing, ``Aizhixing Strongly Concerned That Many Lawyers Still Have 
Not Passed Annual Assessment for Professional Lawyers'' [Ai zhi xing 
qianglie guanzhu duo ming lushi shangwei tongguo lushi zhiye niandu 
kaohe], reprinted in Boxun, 28 June 11.
    \74\ China Human Rights Lawyers Concern Group, ``Four Human Rights 
Lawyers Barred From Passing the Annual Assessment,'' 19 July 11.
    \75\ Xu Kai, `` `Chinese Characteristics' of Lawyers Association'' 
[``Zhongguo tese'' de luxie], Caijing Magazine, 18 July 11.
    \76\ Ibid.
    \77\ Liu Xiaoyuan, `` `Chinese Characteristics' of Lawyers 
Association'' [``Zhongguo tese'' de luxie], Liu Xiaoyuan's Blog, 
reprinted in Sina, 19 July 11.
    \78\ ``Chinese Human Rights Defender Gao Zhisheng Disappears 
Again,'' CECC China Human Rights and Rule of Law Update, No. 5, 4 June 
10, 2.
    \79\ Charles Hutzler, ``AP Exclusive: Missing Chinese Lawyer Told 
of Abuse,'' Associated Press, reprinted in Bloomberg, 10 January 11.
    \80\ Edward Wong, ``U.N. Rights Group Calls on China To Release 
Lawyer,'' New York Times, 28 March 11; Office of the UN High 
Commissioner for Human Rights, Working Group on Arbitrary Detention, 
Opinion No. 26/2010 (People's Republic of China), reprinted in Freedom 
Now, 6 July 10.
    \81\ Office of the UN High Commissioner for Human Rights, Working 
Group on Arbitrary Detention, Fact Sheet No. 26, May 2000, sec. IV; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 12, 18, 19, 21, 22, 25, 26, and 27; 
Universal Declaration of Human Rights, adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, arts. 7, 10, 
13, 14, 18, 19, and 21. The ICCPR provides that the deprivation of an 
individual's liberty is permissible only ``on such grounds and in 
accordance with such procedure as are established by law,'' and that an 
individual must be promptly informed of the reasons for his detention 
and any charges against him or her. See ICCPR, arts. 9(1), 9(2).
    \82\ See, e.g., PRC Constitution, enacted and effective 4 December 
82, amended 12 April 88, 29 March 93, 15 March 99, 14 March 04, arts. 
35, 37, 41; PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susong fa], enacted 1 July 79, amended 17 March 96, effective 1 
January 97, art. 3; PRC Public Security Administration Punishment Law 
[Zhonghua renmin gongheguo zhian guanli chufa fa], enacted 28 August 
05, effective 1 March 06, arts. 3, 9, 10, 16; PRC Legislation Law 
[Zhonghua renmin gongheguo lifa fa], enacted 15 March 00, effective 1 
July 00, art. 8(v).
    \83\ Freedom Now, ``UN Declares Detention of Imprisoned Nobel Peace 
Prize Laureate and Wife Illegal; Calls for Immediate Release,'' 1 
August 11; ``UN Group Calls for Immediate Release of Liu Xiaobo and 
Wife Liu Xia,'' Congressional-Executive Commission on China, 12 August 
11.
    \84\ Office of the UN High Commissioner for Human Rights, ``China: 
UN Expert Body Concerned About Recent Wave of Enforced 
Disappearances,'' 8 April 11.
    \85\ International Convention for the Protection of All Persons 
From Enforced Disappearance, adopted by UN General Assembly resolution 
A/RES/61/177 of 20 December 06, entry into force 23 December 10, art. 
2.
    \86\ Chinese Human Rights Defenders, ``Individuals Affected by the 
Crackdown Following Call for `Jasmine Revolution,' '' 30 May 11.
    \87\ Office of the UN High Commissioner for Human Rights, ``China: 
UN Expert Body Seriously Concerned About Tibetan Monks Reportedly 
Subjected to Enforced Disappearance,'' 8 June 11. For more information, 
see ``After Monk's Suicide: Coerced Removal and `Education' for Monks; 
Possible Murder Charges,'' Congressional-Executive Commission on China, 
17 August 11.
    \88\ ``China To Amend Criminal Procedural Law,'' Xinhua, reprinted 
in China Daily, 24 August 11; National People's Congress, ``Criminal 
Procedure Law Amendments (Draft): Explanation of Provisions and Draft'' 
[Xingshi susongfa xiuzheng'an (cao'an) tiaowen ji cao'an shuoming], 30 
August 11; PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susongfa], enacted 1 July 79, amended 17 March 96, effective 1 
January 97. For more information on reviews of draft laws, see Article 
27 of the PRC Legislation Law [Zhonghua renmin gongheguo lifafa], 
issued 15 March 00, effective 1 July 00, art. 27.
    \89\ ``Procedural Justice,'' China Daily, 25 August 11.
    \90\ ``China To Amend Criminal Procedural Law To Prevent Forced 
Confessions,'' Xinhua, 24 August 11.
    \91\ ``China's Draft Law Amendment in Conformity With International 
Conventions: Experts,'' Xinhua, 30 August 11.
    \92\ National People's Congress, ``Criminal Procedure Law 
Amendments (Draft): Explanation of Provisions and Draft'' [Xingshi 
susongfa xiuzheng'an (cao'an) tiaowen ji cao'an shuoming], 30 August 
11, item 14; PRC Criminal Procedure Law [Zhonghua renmin gongheguo 
xingshi susongfa], enacted 1 July 79, amended 17 March 96, effective 1 
January 97, art. 43.
    \93\ National People's Congress, ``Criminal Procedure Law 
Amendments (Draft): Explanation of Provisions and Draft'' [Xingshi 
susongfa xiuzheng'an (cao'an) tiaowen ji cao'an shuoming], 30 August 
11, item 17.
    \94\ Ibid., item 7; PRC Criminal Procedure Law [Zhonghua renmin 
gongheguo xingshi susongfa], enacted 1 July 79, amended 17 March 96, 
effective 1 January 97, art. 36.
    \95\ For more information on the international organizations and 
experts' criticism of the draft amendment's treatment of residential 
surveillance, see, e.g., Human Rights Watch, ``China: Don't Legalize 
Secret Detention,'' 1 September 11; Michael Wines, ``More Chinese 
Dissidents Appear to Disappear,'' New York Times, 2 September 11; Jaime 
FlorCruz, ``Proposed Legal Changes in China Cause Jitters,'' CNN, 3 
September 11.
    \96\ National People's Congress, ``Criminal Procedure Law 
Amendments (Draft): Explanation of Provisions and Draft'' [Xingshi 
susongfa xiuzheng'an (cao'an) tiaowen ji cao'an shuoming], 30 August 
11, item 30.
    \97\ Ibid.
    \98\ International Convention for the Protection of All Persons 
From Enforced Disappearance, adopted by UN General Assembly resolution 
A/RES/61/177 of 12 January 07, entry in force 23 December 10, item 2.
    \99\ See, e.g., Michael Wines, ``More Chinese Dissidents Appear To 
Disappear,'' New York Times, 2 September 11; Jaime FlorCruz, ``Proposed 
Legal Changes in China Cause Jitters,'' CNN, 3 September 11; ``Amend 
Legal Procedures,'' China Daily, 1 September 11.
    \100\ ``Amend Legal Procedures,'' China Daily, 1 September 11.
    \101\ Human Rights Watch, ``China: Free Unlawfully Detained Legal 
Activists, Relatives,'' 22 February 11; Didi Kirsten Tatlow, ``Out of 
Jail in China, but Not Free,'' New York Times, 9 March 11; Chinese 
Human Rights Defenders, ``Elections Expert Yao Lifa Abused and Beaten 
During Soft Detention Period,'' reprinted in Boxun, 13 December 10.
    \102\ Human Rights Watch, ``China: Free Unlawfully Detained Legal 
Activists, Relatives,'' 22 February 11; Didi Kirsten Tatlow, ``Out of 
Jail in China, but Not Free,'' New York Times, 9 March 11; ``China 
Nobel Laureate Wife Fears Going `Crazy': Activists,'' Agence France-
Presse, reprinted in Google, 26 February 11.
    \103\ Chinese Human Rights Defenders, ``Chinese Reactions to Liu 
Xiaobo's Nobel Peace Prize--From Both Sides,'' 3 January 11.
    \104\ Human Rights in China, ``Prominent Rights Activists Detail 
Life in 74-Day House Arrest,'' 30 December 10.
    \105\ Andrew Jacobs and Jonathan Ansfield, ``China's Intimidation 
of Dissidents Said To Persist After Prison,'' New York Times, 17 
February 11.
    \106\ Michael Wines, ``A Chinese Advocate Is Freed, but Stays Under 
Surveillance,'' New York Times, 9 September 10; Ian Johnson and 
Jonathan Ansfield, ``Chinese Officials Beat Activist and His Wife, 
Group Says,'' New York Times, 17 June 11.
    \107\ Andrew Jacobs, ``China Detains Church Members at Easter 
Services,'' New York Times, 24 April 11.
    \108\ CECC, 2007 Annual Report, 10 October 07, 39-41; Dui Hua 
Foundation, ``Reference Materials on China's Criminal Justice System, 
Vol. 2 (June 2009), iv; CECC, 2008 Annual Report, 31 October 08, 36-37; 
Chinese Human Rights Defenders, ``Re-Education Through Labor Abuses 
Continue Unabated: Overhaul Long Overdue,'' 4 February 09, 4.
    \109\ Bureau of Reeducation Through Labor Administration, ``A Brief 
Description of China's Reeducation Through Labor System'' [Zhongguo 
laodong jiaoyang zhidu jianjie], accessed 14 July 11.
    \110\ Xiaobing Li, Civil Liberties in China, (Santa Barbara, 
California: ABC-CLIO, 2010), 118; Human Rights in China, ``Reeducation 
Through Labor: A Summary of Regulatory Issues and Concerns,'' 1 
February 01; Jim Yardley, ``Issue in China: Many in Jails Without 
Trial,'' New York Times, 9 May 05; Chinese Human Rights Defenders, 
``Re-Education Through Labor Abuses Continue Unabated: Overhaul Long 
Overdue,'' 4 February 09, 3.
    \111\ ``News Update: Rights Advocate Wang Yi (Cheng Jianping) 
Ordered To Serve One Year of Reeducation Through Labor'' [Kuaixun: 
Weiquan renshi wang yi (cheng jianping) bei laojiao yi nian], Boxun, 15 
November 10; Human Rights in China, ``Lawyers Appeal to Twitter CEO for 
Help,'' 9 January 11.
    \112\ Chinese Human Rights Defenders, ``Update: Human Rights 
Defender Wang Yi Sent to RTL'' [Kuaixun: weiquan renshi wang yi zheng 
yao bei song qu laojiao], reprinted in Boxun, 15 November 10.
    \113\ Human Rights in China, ``Two Years of Reeducation-Through-
Labor for Rights Activist Yang Qiuyu,'' 14 April 11.
    \114\ Ibid.
    \115\ ``China: Mao Hengfeng Released From Prison in a Wheelchair,'' 
Asia News, reprinted in Spero News, 30 July 11.
    \116\ Ibid.
    \117\ Human Rights in China, ``Petitioner Mao Hengfeng Released 
From Reeducation-Through-Labor in Serious Condition,'' 28 July 11.
    \118\ ``China: Mao Hengfeng Released From Prison in a Wheelchair,'' 
Asia News, reprinted in Spero News, 30 July 11; Human Rights in China, 
``Petitioner Mao Hengfeng Released From Reeducation-Through-Labor in 
Serious Condition,'' 28 July 11.
    \119\ Hai Yan, ``Thousands of Chinese Citizens Jointly Sign Letter 
To Abolish Reeducation Through Labor System'' [Zhongguo qian gongmin 
lian shu yaoqiu feichu laojiao zhidu], Voice of America, 16 February 
11.
    \120\ Ibid.
    \121\ Ibid.
    \122\ Liu Chang, ``Controversy Over `Black Jails' Continues,'' 
Global Times, 4 May 11; ``Campaigner Detained in Beijing,'' Radio Free 
Asia, 2 February 11; Chris Buckley, ``China's Wen Meets Petitioners in 
Show of Worry Over Discontent,'' Reuters, 25 January 11.
    \123\ Human Rights Watch, ``An Alleyway in Hell: China's Abusive 
`Black Jails,' '' 12 November 09.
    \124\ Human Rights Watch, ``Closing China's Network of Secret 
Jails,'' 9 December 10.
    \125\ See, e.g., Chinese Human Rights Defenders, ``Jilin Petitioner 
Qu Yanjiang Is Tricked Back Into Black Jail Custody by Retrievers'' 
[Jilin fang min qu yanjiang bei jie fang ren pian hui guan hei jianyu], 
reprinted in Boxun, 24 October 10; Gan Hao, ``Petitioner Reports to 
Police That He Was `Detained and Beaten' '' [Fangmin baojing cheng zao 
``guanya ouda''], Beijing News, 12 January 11; ``Black Jails, 
Petitioners on Eve of Spring Festival: 13 Big Stories of Beijing 
Petitioning in 2010'' [Hei jianyu, fang min chunwan: 2010 nian zaijing 
fang min 13 da xinwen], Boxun, 3 January 11; Liu Chang, ``Controversy 
Over `Black Jails' Continues,'' Global Times, 4 May 11; ``After All, 
Where Is Jiangsu Sihong County's `Petitioner Study Class'? '' [Jiangsu 
si hong xian de ``xinfang xuexi ban'' jiujing shige shenme difang?], 
Southern Metropolitan Daily, 28 April 11; Andrew Jacobs and Jonathan 
Ansfield, ``Well-Oiled Security Apparatus in China Stifles Calls for 
Change,'' New York Times, 28 February 11; Melinda Liu and Isaac Stone 
Fish, ``Portrait of the Gulag,'' Newsweek, 26 June 11; ``Veterans 
Protest Over Welfare,'' Radio Free Asia, 29 June 11.
    \126\ Long Zhi, ``Anyuanding: Investigation Into Beijing's `Black 
Jails' To Stop Petitioners'' [Anyuanding: beijing jie fang ``hei 
jianyu'' diaocha], Southern Metropolitan Daily, 24 September 10; 
``China Police Investigate `Black Jails' for Protesters,'' BBC, 27 
September 10.
    \127\ Andrew Jacobs, ``China Investigates Extralegal Petitioner 
Detentions,'' New York Times, 27 September 10; Susan Stumme, ``China PM 
First To Meet Petitioners in 60 Years,'' Agence France-Presse, 
reprinted in Google, 25 January 11.
    \128\ Zhan Caiqiang, `` `Study Sessions' Nightmare'' [``Xuexi ban'' 
mengyan], Southern Metropolitan Daily, 27 April 11. See also Liu Chang, 
``Controversy Over `Black Jails' Continues,'' Global Times, 4 May 11.
    \129\ The term ``nail household'' (dingzi hu) is commonly used to 
refer to tenants who refuse to leave their households despite the 
demolition of structures around them.
    \130\ Zhan Caiqiang, `` `Study Sessions' Nightmare'' [``Xuexi ban'' 
mengyan], Southern Metropolitan Daily, 27 April 11. See also Liu Chang, 
``Controversy Over `Black Jails' Continues,'' Global Times, 4 May 11.
    \131\ Zhan Caiqiang, `` `Study Sessions' Nightmare'' [``Xuexi ban'' 
mengyan], Southern Metropolitan Daily, 27 April 11; Zhang Xuanchen, 
``Officials Accused of Opening Illegal `Jail,' '' Shanghai Daily, 28 
April 11.
    \132\ An Ying and Yi Fangxing, ``Woman Detained in Black Jail After 
Coming to Beijing To Handle Affairs'' [Laijing banshi nu bei guan 
heijianyu], Beijing News, 2 August 11; Wang Huazhong, ``Former Inmate 
Reveals Existence of `Black Jail,`'' China Daily, 3 August 11.
    \133\ Ibid.
    \134\ Ibid.
    \135\ Dui Hua Foundation, ``Official Fear: Inside a Shuanggui 
Investigation Facility,'' 5 July 11.
    \136\ Li Yanhui, ``Chaoyang Deputy Director Allegedly Detained for 
Bribery,'' Global Times, 2 June 11; Zhang Lu, ``Beijing's Chaoyang 
District Deputy Mayor Liu Xiquan Investigated,'' Caijing, 1 June 11.
    \137\ ``Shandong Provincial Government Secretary-General Zhang 
Wanqing Dismissed, Had Been Detained Under Shuanggui'' [Shandong sheng 
zhengfu mishu zhang zhang wanqing bei ti qing chezhi ci qian bei 
shuanggui], People's Daily, 26 May 11.
    \138\ Zhang Yuzhe, ``High-Ranking Ministry of Finance Official 
Detained,'' Caixin Net, 18 January 11.
    \139\ ``Human Rights and the Rule of Law in China,'' CECC Hearing, 
20 September 06, Testimony of Jerome A. Cohen, Professor of Law, New 
York University Law School, Co-Director of U.S.-Asia Law Institute.
    \140\ Dui Hua Foundation, ``Official Fear: Inside a Shuanggui 
Investigation Facility,'' 5 July 11.
    \141\ ``Human Rights and the Rule of Law in China,'' CECC Hearing, 
20 September 06, Testimony of Jerome A. Cohen, Professor of Law, New 
York University Law School, Co-Director of U.S.-Asia Law Institute.
    \142\ CECC, 2010 Annual Report, 10 October 10, 96.
    \143\ He Weifang, ``For the Rule of Law, for the Ideal in Our 
Hearts--A Letter to Chongqing Colleagues'' [Weile fazhi, weile women 
xinzhongde di na yi fen lixiang--zhi chongqing falu jie de yifeng 
gongkaixin], China Media Project, 12 April 11.
    \144\ Ibid.
    \145\ Ibid.
    \146\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Report on Human Rights Practices--2010 Human Rights 
Report: China (includes Tibet, Hong Kong, and Macau),'' 8 April 11.
    \147\ ``Jailed Activist's Health Failing,'' Radio Free Asia, 17 
January 11.
    \148\ Ibid.; Chinese Human Rights Defenders, ``Zeng Jinyan Once 
Again Applies for Medical Parole for Hu Jia's Condition in Prison,'' 17 
January 11.
    \149\ PEN International, ``CHINA: Death Announced of Prominent 
Writer Zhang Jianhong (aka Li Hong),'' 12 January 11.
    \150\ Ibid.
    \151\ ``China Frees Father Zhao Lianhai Jailed for Milk Protest,'' 
Associated Press, reprinted in Australian, 29 December 10.
    \152\ Ibid.
    \153\ Will Clem and Choi Chi-yuk, ``Beijing's Silence an Ominous 
Signal,'' South China Morning Post, 6 April 11; ``Milk Activist Told 
`Be Quiet or Go Back to Jail,' '' South China Morning Post, 8 April 11.
    \154\ ``Milk Activist Told `Be Quiet or Go Back to Jail,' '' South 
China Morning Post, 8 April 11.
    \155\ Human Rights in China, ``Petitioner Recounts Abuses During 
RTL; Medical Parole Rescinded,'' 24 February 11.
    \156\ Ibid.
    \157\ ``Mao Hengfeng: Amnesty Urgent Action,'' Guardian, 25 June 
11.
    \158\ ``Supreme People's Court Work Report'' [Zuigao renmin fayuan 
gongzuo baogao], Xinhua, reprinted in National People's Congress of the 
People's Republic of China, 19 March 11.
    \159\ Supreme People's Court, ``2010 Annual Work Report on the 
People's Courts'' [Renminfayuan gongzuo niandu baogao (2010 nian)], 25 
May 11. For more information on the death penalty in the 2010 Annual 
Work Report, see, e.g., Michael Bristow, ``China Orders Suspension of 
Death Sentences,'' BBC News, 25 May 11; Wang Qiushi, ``SPC Requests 
Uniform Suitable Standards for the Death Penalty; Try Utmost To Not 
Immediately Implement the Death Penalty'' [Zuigao fa yaoqiu tongyi 
sixing shiyong biaozhun jinliang bu pan sixing liji zhixing], People's 
Daily, 25 May 11.
    \160\ Zhao Yinan, ``13 Crimes Removed From Death Penalty List,'' 
China Daily, 26 February 11; Robert Saiget, ``China Scraps Death 
Penalty for Some Crimes,'' Agence France-Presse, reprinted in Google, 
26 February 11.
    \161\ Zhao Yinan, ``13 Crimes Removed From Death Penalty List,'' 
China Daily, 26 February 11; ``China Mulls Lessening Number of Crimes 
Punishable by Death,'' Xinhua, 23 August 10.
    \162\ Zhao Lei, ``Greater Steps Can Be Taken To Reduce the Death 
Penalty'' [Jianshao sizui, buzi keyi zai da yixie], Southern Weekend, 
26 August 10. For more information, see ``Chinese Government Considers 
Reducing Number of Crimes Punishable by Death,'' Congressional-
Executive Commission on China, 23 February 11.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
